No. 21-185
IN rrro

Supreme @outt

of. tbe

@riteD $tutes

SCOTT SOLOMON,
Petitioner,
V

AMERICAN FEDERATION OF STATE, COUNTYAND MUNICIPAL
EMPLOYEES, DISTRICT COUNCIL 37, AFL- CIO,
Respondent.
On Petition for Writ of Certiorari to the United
States Court of Appeals for the Second Circuit

CERTIFICATE OF SERVICE
I, Lauren Noto, of lawful age, upon my oath state that I did, on the 23rd day of August,
202I, serve an electronic copy of the BRIEF IN OPPOSITION in the above-entitled
case to all parties required to be served, who consented to electronic service only:
Jeffrey Michael Schwab
(Counsel of Record)

Liberty Justice Center
141 W. Jackson Street
Suite 1065
Chicago, IL 60604
312.637.2280
j schw ab@libertyj usticece nter. or g

I certify under penalty of perjury that the foregoing is true and correct.

&w
Lauren Noto
Executed on the 23rd day ofAugust,202L

